<html>
<title> - VOTING RIGHTS AND ELECTION ADMINISTRATION IN THE U.S. VIRGIN ISLANDS AND OTHER TERRITORIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


 VOTING RIGHTS AND ELECTION ADMINISTRATION IN THE U.S. VIRGIN ISLANDS 
                         AND OTHER TERRITORIES

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ELECTIONS

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 28, 2020

                               __________

      Printed for the use of the Committee on House Administration

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                       Available on the Internet:
         http://www.govinfo.gov/committee/house-administration
         
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-333                     WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
        
         
                   COMMITTEE ON HOUSE ADMINISTRATION

                  ZOE LOFGREN, California, Chairperson
JAMIE RASKIN, Maryland               RODNEY DAVIS, Illinois,
SUSAN A. DAVIS, California             Ranking Member
G. K. BUTTERFIELD, North Carolina    MARK WALKER, North Carolina
MARCIA L. FUDGE, Ohio                BARRY LOUDERMILK, Georgia
PETE AGUILAR, California
                            
                            
                            C O N T E N T S

                              ----------                              

                             JULY 28, 2020

                                                                   Page
Voting Rights and Election Administration in the U.S. Virgin 
  Islands and Other Territories..................................     1

                           OPENING STATEMENTS

Chairperson Marcia L. Fudge......................................     1
    Prepared statement of Chairperson Fudge......................     3
Hon. Rodney Davis, Ranking Member................................     5
    Prepared statement of Ranking Member Davis...................     7

                               WITNESSES

Hon. Stacey E. Plaskett, Delegate, United States Virgin Islands..    10
    Prepared statement of Hon. Plaskett..........................    12
Hon. Jenniffer Gonzalez-Colon, Resident Commissioner of Puerto 
  Rico...........................................................    18
    Prepared statement of Hon. Gonzalez-Colon....................    20
Hon. Michael F. Q. San Nicolas, Delegate, Guam...................    22
    Prepared statement of Hon. San Nicolas.......................    24
Hon. Gregorio Kilili Camacho Sablan, Delegate, Commonwealth of 
  the Northern Mariana Islands...................................    26
    Prepared statement of Hon. Sablan............................    28
Mr. Gerard Emanuel, Retired Educator.............................    70
    Prepared statement of Mr. Emanuel............................    72
Mr. Neil Weare, President and Founder, Equally American Legal 
  Defense & Education Fund.......................................    82
    Prepared statement of Mr. Weare..............................    84

                   MATERIAL SUBMITTED FOR THE RECORD

Statement of Robert Underwood, former Delegate, Guam.............    32
Statement of Curtis L. Decker, Executive Director, National 
  Disability Rights Network......................................    36
Statement of Pamela Lynn Colon, Esq., citizen of St. Croix, U.S. 
  Virgin Islands.................................................    38
Statement of Emile A. Henderson III, Esq., Managing Attorney, 
  Yvette D. Ross-Edwards P.C.....................................    53
Statement of Caroline F. Fawkes, CERA, Supervisor of elections, 
  U.S. Virgin Islands............................................    55
Statement of Carol M. Burke, National Committee Woman, Democratic 
  Party of the U.S. Virgin Islands...............................    62
Statement of Gustav James, citizen of St. Croix, U.S. Virgin 
  Islands........................................................    64
Statement of John M. Canegata, Chairman, Republican Party of the 
  U.S. Virgin Islands............................................    67
Statement of the Democratic Party of Puerto Rico.................    90
Statement of the Puerto Rico Equality Commission.................    93

 
 VOTING RIGHTS AND ELECTION ADMINISTRATION IN THE U.S. VIRGIN ISLANDS 
                         AND OTHER TERRITORIES

                              ----------                              


                         TUESDAY, JULY 28, 2020

                  House of Representatives,
                         Subcommittee on Elections,
                         Committee on House Administration,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:07 a.m., via 
Webex, Hon. Marcia L. Fudge [Chair of the Subcommittee] 
presiding.
    Present: Representatives Fudge, Davis of California, 
Butterfield, Aguilar, and Loudermilk.
    Staff Present: Jamie Fleet, Staff Director; Dan Taylor, 
General Counsel; Brandon Jacobs, Legislative Clerk; Stephen 
Spaulding, Senior Elections Counsel; Sarah Nasta, Elections 
Counsel; Peter Whippy, Communications Director; David Tucker, 
Senior Counsel and Parliamentarian; Jen Daulby, Minority Staff 
Director; Tim Monahan, Minority Deputy Staff Director; Cole 
Felder, Minority General Counsel; and Veleter Mazyck, Chief of 
Staff, Rep. Marcia Fudge.
    Chairwoman Fudge. The Subcommittee on Elections of the 
Committee on House Administration will come to order. I see my 
colleagues from the Committee: Mr. Davis--thank you so much--
Mr. Aguilar, and I do understand that Mr. Butterfield is 
joining us shortly.
    I want to thank my colleagues who are witnesses on this 
panel as well. Thank you so much for being here today for this 
virtual Subcommittee hearing.
    As we begin, I want to remind our Members and participants 
of a few things that will help us navigate this new platform. 
We are holding this hearing in compliance with the regulations 
for remote committee proceedings pursuant to H. Res. 965.
    The fundamental nature of the hearing and our rules are 
unchanged. Generally, the Committee will keep microphones muted 
to limit background noise. Members will need to unmute 
themselves when seeking recognition or when recognized for 
their five minutes. Witnesses will need to unmute themselves 
when recognized for their five minutes or when answering a 
question.
    Members and witnesses please keep your camera on at all 
times, even if you need to step away for a moment during the 
proceedings. Do not leave the meeting.
    At this time, I ask unanimous consent that all members have 
five legislative days to revise and extend their remarks and 
that any written statements be made part of the record.
    Hearing no objection, so ordered.
    Now we turn to today's important topic. On a morning when 
we are discussing voting, we note that this is our first 
hearing on voting since the passing of our dear friend and 
colleague The Honorable John Robert Lewis. Congressman Lewis 
spent his life and career fighting for the right of every 
American to have free and fair access to the ballot. We must 
and will continue that work.
    Today we will examine the issues of voting rights and 
election administration in the territories of the United 
States. This Committee is tasked with oversight of Federal 
elections. This must include oversight of how Federal elections 
are administered in the U.S. territories, the impact of Federal 
laws on elections in the territories, and investigating 
barriers to the ballot box. During the many hearings held by 
the Committee and Subcommittee throughout the 116th Congress, 
we have explored issues of election administration, election 
security, voting rights, and access, and protecting the 
integrity of our democracy. It is past time we include voting 
in the U.S. territories in this examination. And I thank Ms. 
Plaskett for asking that we do this some time ago.
    Collectively, the U.S. Virgin Islands and Puerto Rico in 
the Atlantic, and Guam, American Samoa, and the Commonwealth of 
the Northern Mariana Islands in the Pacific constitute the five 
inhabited territories of the United States. Nearly 4 million 
people live in the territories. These are our fellow Americans. 
They have suffered significant devastation in recent years from 
hurricanes and tropical cyclones. They are not immune from the 
impacts of the ongoing COVID-19 pandemic. Their residents 
served in the armed services at a rate historically among the 
highest of any in the Nation.
    Our examination of access to the ballot would be incomplete 
if we did not address access to the ballot in the U.S. 
territories. We are here today to listen to, and learn from, 
our colleagues, citizens, and litigators about the barriers to 
access to the ballot in the territories. I thank you all for 
being here.
    I would now like to welcome our witnesses. Each of you will 
be recognized--forgive me. Mr. Davis, would you like to make an 
opening comment?
    [The statement of Chairwoman Fudge follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis. It is great to see everybody. I want to say 
thanks to everybody here.
    Since the creation of the Committee on House 
Administration, oversight of Federal elections quickly became 
one of its chief tasks. Throughout the CHA's existence, the 
Committee has worked across the aisle to create significant and 
necessary election policy that has widely impacted this Nation, 
including legislation to eliminate the poll tax, legislation to 
create easier access to members of the military and their 
families when voting overseas, and the Help America Vote Act, a 
landmark piece of legislation that took significant steps to 
remedy the problems seen in the 2000 Presidential election.
    The Subcommittee on Elections is designed to serve as an 
extension of the CHA to enhance oversight capabilities of 
Federal elections. While the Subcommittee has not always been a 
formal part of CHA, the work on election administration has 
always remained a top priority.
    And this priority should not be a partisan one. Hearing 
from the people who actually conduct elections and the problems 
they face is vital to our work on this Subcommittee. That is 
why, in the past, I have invited my own local election 
administrator, who is a Democrat, to testify in front of full 
House Administration Committee and have my staff reach out to 
the Virgin Islands elections administrator, Ms. Caroline 
Fawkes, after it was brought to our attention she was not 
contacted ahead of time about this hearing to hear what her 
concerns are. I am glad she was able to submit written 
testimony for the record today. We must work in conjunction 
with election officials and include them in hearings like this.
    I am sorry to see Mr. Abramson is sick. I was looking 
forward to hearing his perspective.
    While expanding voting rights is a noble and just cause, we 
are less than 100 days until States and localities will be 
conducting a Presidential election in the middle of a global 
pandemic, something not done in my lifetime. However, during 
recent primaries, we did get a glimpse of the many problems 
that can occur if steps are not taken to properly prepare 
election administrators and voters. This Committee should be 
providing oversight of States and localities who run our 
elections by engaging with localities where we saw significant 
issues in recent primaries and where the risk of 
disenfranchising voters is great if changes are not made before 
November.
    Just last week, I sent letters to 10 different localities 
across the country seeking information regarding issues 
reported in recent primaries and other election administration 
violations. State and local election officials are moving 
quickly to adapt to running elections during this pandemic, and 
I want to make sure we are providing them the help and guidance 
they need to run a successful election this fall.
    I want to make sure we are avoiding some of the issues we 
saw prior to the adoption of the Voting Rights Act: 
consolidation of polling locations, confusion among voters on 
their proper polling location, and long lines on election day.
    Nevertheless, we are here today to explore voting rights 
and election administration in the territories. I certainly 
wished we would have had this one in-person, but, 
unfortunately, the pandemic took care of that.
    I do want to thank my good friend and former seatmate on 
the House Ag Committee, Congresswoman Stacey Plaskett from the 
Virgin Islands, Congresswoman Gonzalez-Colon from Puerto Rico, 
Congressman San Nicolas from Guam, and Congressman Sablan from 
the Northern Mariana Islands for their testimony they are about 
to give today. I have enjoyed the opportunity to work with each 
of you. There are five inhabited unincorporated territories of 
the United States: American Samoa, Puerto Rico, Guam, the 
Northern Mariana Islands, and the Virgin Islands. Each of these 
territories have contributed in countless ways to the American 
fabric. For instance, the rate of military service from these 
territories is traditionally much higher than the mainland. 
Their cultures make America better. However, they do not have 
voting representation in the United States Congress. 
Underlaying this status are numerous court decisions--some 
recent, some antiquated.
    Today I am here to listen to all the witnesses who have 
graciously agreed to participate in this virtual hearing. And I 
look forward to hearing what you have to share with the 
Subcommittee. Thank you, Madam Chair. And I yield back.
    [The statement of Mr. Davis follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you, Ranking Member Davis.
    I would now like to welcome our witnesses. Each of you will 
be recognized for five minutes. I will remind our witnesses 
that their entire written statements will be made a part of 
record and that the record will remain open for at least five 
days for additional materials to be submitted.
    A reminder to all our witnesses: There is a timer on the 
screen. Please be sure you can see the timer and are mindful of 
the five-minute time limit.
    Our first panel, we will hear from four of our colleagues, 
each of whom represent residents of the territories. As is our 
custom, we will not ask our colleagues questions.
    Congresswoman Stacey Plaskett, my good friend, represents 
the United States Virgin Islands at-large congressional 
district. She currently serves on the House Transportation and 
Infrastructure Committee, the Oversight and Government Reform 
Committee, and the House Committee on Agriculture, where she 
chairs the Subcommittee on Biotechnology, Horticulture, and 
Research.
    Prior to serving in Congress, Representative Plaskett 
served as an assistant district attorney in the Bronx, a senior 
counsel at the Department of Justice, and as general counsel 
for the Virgin Islands Economic Development Authority.
    Welcome, Ms. Plaskett.
    Congresswoman Jenniffer Gonzalez-Colon was elected in 2016 
as Puerto Rico's sole representative to the Congress, known as 
a Resident Commissioner. She is the first woman to hold the 
office. She is a member of the House Committees on 
Transportation and Infrastructure, and Natural Resources. She 
previously served in the Puerto Rico House of Representatives 
where she served as speaker of the House and minority leader.
    Welcome.
    Congressman Michael San Nicolas represents Guam in the 
116th Congress. Before coming to Congress in 2019, Congressman 
San Nicolas served in the Guam legislature since 2013. He 
currently serves as vice chair of the House Financial Services 
Committee and a serves on the Natural Resources Committee.
    Welcome to you.
    And, lastly, Congressman Gregorio Kilili Camacho Sablan is 
the first and only person to represent the people of the 
Northern Mariana Islands in the House of Representatives, 
beginning service in 2009--my classmate. He currently serves as 
chair for Subcommittee on Early Childhood, Elementary and 
Secondary Education of the Education and Labor Committee, as 
well as on the Natural Resources and Veterans' Affairs 
Committees.
    Prior to serving in Congress, Congressman Sablan served in 
the Northern Mariana Islands legislature in the administration 
of several Governors and was appointed executive director of 
the Commonwealth Election Commission.
    I will now recognize the witnesses for five minutes apiece.
    Ms. Plaskett, you are recognized.

    STATEMENT OF THE HON. STACEY E. PLASKETT, A DELEGATE IN 
                CONGRESS FROM THE VIRGIN ISLANDS

    Ms. Plaskett. Good morning, Chairwoman Fudge, Ranking 
Member Davis, fellow Members of Congress, distinguished guests. 
My name is Stacey Plaskett, and I represent the Virgin Islands 
of the United States in the U.S. House of Representatives. 
Thank you so much for this hearing.
    One cannot discuss voting rights and disenfranchisement in 
the territories without talking about race and racism. The 
unincorporated territories of the Virgin Islands of the United 
States, a possession, is the most structural example of 
systemic racism. That system permeates the legal status, as 
well as the economic, political, and educational structure that 
keeps the disparity between us and the mainland. It manifests 
itself as a position of exclusion of the people living in the 
Virgin Islands from equitable treatment.
    103 years ago, the Danish Government sold what is now known 
as the Virgin Islands, land, waters, property, and as part of 
the package, people. All four of my grandparents were alive and 
living on the island of St. Croix at the time of the transfer. 
Of my eight great-grandparents, I believe one may have met the 
land and income requirements mandatory to be able to vote on 
the purchase. Only one would have been able to vote for his 
destiny. And after the purchase, those living in the 
territories, my grandparents and great-grandparents, my family 
were citizens of nowhere. They had no citizenship for 10 years.
    After becoming citizens, Virgin Islanders came to 
Washington and petitioned, pleaded for the ability to be part 
of the draft. Virgin Islanders like the other territories serve 
and give the ultimate sacrifice in far greater number per 
capita than those Americans on the mainland. We want the 
responsibility, not just the privileges. This is a longstanding 
absurdity in our current legal system. Nearly 4 million 
Americans live on American soil and cannot fully participate in 
our democracy. They can only participate if they leave home. So 
long as they reside on the Virgin Islands' soil, on U.S. soil, 
on mainland soil, they can vote for President. But when they 
move to a territory, their voting rights disappear.
    As you all know, the territories do not have equal voting 
representation in Congress. In recent history, they have 
occasionally had similar rights in the U.S. House of 
Representatives in the event that it has resolved itself in the 
Committee on the Whole on the State of the Union for 
consideration of amendments to legislation, so long as the 
territories' vote won't actually make a difference. Do you know 
what it is like to see a bill related to your people, your 
constituents, and not be able to vote on it?
    This lack of equal representation and equal voting power 
has a direct correlation to persistent poverty across all of 
the U.S. territories. Americans living in the territories are 
accustomed to being last in line for hurricane relief, for 
COVID-19 equipment, for basic healthcare, education, and more. 
All five territories have significantly lower per capita income 
than States, yet are subject to arbitrary eligibility barriers 
and funding caps that limit their poorest residents to much 
needed Federal benefits, like Medicaid and SSI, as well as the 
formulas for roads and education and more.
    I submit that they would be much more likely to receive 
parity and equality under these programs if millions of 
Americans who live in the territories of the United States were 
allowed to participate fully in our democracy. At the core of 
the disenfranchisement of the territories is a series of 
controversial Supreme Court decisions written in the same 
period that the Virgin Islands became part of the United States 
known as the Insular Cases. These cases held that the 
Constitution's rights and protections do not necessarily apply 
to Americans in the territories nor to the promises of full 
political participation or equality. Those decisions were 
explicitly informed by racial assumptions. In one case, the 
Court refused to extend equal constitutional guarantees in 
Puerto Rico because doing so would place an undesirable limit 
on the Federal Government's ability to rule over ``savages'' 
or, ``alien raises'' not immersed in Anglo-Saxon principles of 
law. It comes as no surprise that the most influential of these 
cases, Downes v. Bidwell, was decided by the same Justices who 
invented separate but equal doctrine of racial segregation in 
Plessy v. Ferguson just 3 years earlier. Yet, even as legal 
scholars have characterized the Insular Cases as central 
documents in the history of American racism. The last three 
administrations, Trump, Obama, and Bush, each have defended the 
Insular Cases, suggesting that outdated racial premises can and 
should remain the law of the land. Before the Insular Cases, 
territories were viewed as inchoate states, areas on the path 
to full statehood. The Insular Cases have created a near 
permanent colonial status for those living in the territories. 
When the House Parliamentarian and Congressional Research 
Service used the Insular Cases to opine on why the territories 
should not be given a full vote, the irony of the Insular Cases 
is that Virgin Islanders in the 1700s pooled money together to 
send a promising young man to the Americas. Alexander Hamilton, 
that young man, coauthored the Constitution, the same document 
that keeps us from this.
    I know that I have run out of time, but I would like to 
submit for the record written testimony from so many Virgin 
Islanders who have given me written testimony. They range 
across the spectrum from the head of our GOP of our Virgin 
Islands Republican Party, John Canegata, to Caroline Fawkes, to 
Carol Burke, the Democratic National Committeewoman, all 
administrations.
    Ms. Plaskett. Thank you for this opportunity, and I look 
forward to listening to our witnesses as well. Thank you so 
much.
    [The statement of Ms. Plaskett follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you very, very much.
    Congresswoman Jenniffer Gonzalez-Colon, you are now 
recognized for five minutes. You need to unmute.

   STATEMENT OF THE HON. JENNIFFER GONZALEZ-COLON, RESIDENT 
         COMMISSIONER FROM THE TERRITORY OF PUERTO RICO

    Miss Gonzalez-Colon.
    Thank you, Madam Chair, members of the Committee for 
holding this hearing on voting rights and election 
administration in the territories.
    The rights to vote and to be equally represented in the 
government that make one's laws and to have elections conducted 
thoroughly are the most fundamental and essential elements of 
democracy. So I need to support the statement of my friend 
Stacey Plaskett. We are fighting almost for the same thing.
    I represent about 89 percent of the total population in the 
five territories. That means that I represent 3.2 million 
American citizens with the same rights as American citizens in 
the States, but we and the residents of other territories live 
in jurisdictions that constitutionally cannot have votes in the 
government that not only make our national laws but can and 
sometimes does intervene in local laws. Congress has this power 
because the Constitution territorial clause, which makes 
Congress our super territorial legislature. Congress can 
delegate the exercise of self-government to the people of a 
territory, but it still ultimately possesses the power to 
govern us in all matters, and it can take it back, the self-
government it has delegated. That is the reality.
    It did this in Puerto Rico in 2016 when the approval of 
PROMESA [the Puerto Rico Oversight, Management, and Economic 
Stability Act], and the Supreme Court subsequently reiterated 
the authority. It cannot relinquish the power without making a 
territory a State or a nation. It also constitutionally can and 
does treat us differently than the States, overall worse.
    These are the single most influential factors in Puerto 
Rico's economy's underdevelopment. It is also why the Americans 
that I represent are not only 35 percent of all Puerto Ricans 
that live on the island; approximately 5 million Puerto Ricans 
live in the U.S. mainland because of the greater opportunities 
and rights available to them in a State which Puerto Rico 
cannot provide.
    The United States is history's greatest democracy, but it 
has never been a perfect democracy. The problem of democracy 
and equality for territories however cannot be rectified by 
Congress or the courts because it comes from the plain meaning 
of the Constitution. The only way for a territory to obtain 
broader representation in Congress, equal or otherwise, or in 
electing a President is to become a State or for the 
Constitution to be amended. We have seen this in the District 
of Columbia obtaining votes in electing the President without a 
constitutional amendment. We have also seen it in repeated 
court rulings rejecting claims that tried to extend Federal 
voting rights of States citizens in territories.
    The only other option for territories to obtain democracy 
is to become nations, either fully independent from or in a 
free association with the United States or another nation, that 
either nation can unilaterally end. This will mean the end of 
U.S. citizenship in one way or another.
    The same is true for obtaining equal treatment in Federal 
programs. Even when we are granted equal treatment, it can be 
taken away. The situation I have described is the hard truth 
for Americans in the territories. These realities and 
appreciation of and the admiration of the United States are why 
the remaining people of Puerto Rico want a territory to become 
a State. We should not have to move to an existing State for 
democracy or equality. That territories will eventually become 
States was a founding principle of our Nation that dates to the 
Articles of Confederation and was reenacted during the First 
Session of the 1st Congress. This policy was cast aside after 
the Spanish-American War in 1898 because of racial and cultural 
bigotry. It was a concern that if Puerto Rico were put on the 
path to statehood, the Philippines would want that too.
    So the Supreme Court divined the existence of a previously 
unknown status: unincorporated territories, that status of 
being a possession but not part of the United States. 
Unincorporated territories can become nations as well as 
States. Only constitutional rights considered to be fundamental 
apply absent action by Congress or Court.
    The Supreme Court has resisted all efforts to reverse its 
findings of this status, including very recently. Doing so 
would mean all territories can only become States. Whether 
others want to, it is for them to say. I can report that Puerto 
Rico does want to be a State of the Union, and it wants 
equality and democracy within the United States, and that is 
the reason we file and dropped H.R. 4901 with 60 cosponsors 
supporting statehood for Puerto Rico, including our friend John 
Lewis.
    Thank you, Madam Chair, and I yield back.
    [The statement of Miss Gonzalez-Colon follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you very, very much.
    Next we will hear from Congressman Michael San Nicolas.
    You are recognized.

 STATEMENT OF THE HON. MICHAEL F.Q. SAN NICOLAS, A DELEGATE IN 
              CONGRESS FROM THE TERRITORY OF GUAM

    Mr. San Nicolas. Chairwoman Fudge and Ranking Member Davis, 
and honorable Members of the Subcommittee. My name is Michael 
F.Q. San Nicolas, and I am the representative at-large for the 
territory of Guam to the U.S. House of Representatives.
    Let me begin by expressing my thanks to the Committee for 
taking the historic step to hold this hearing as it encompasses 
a subject no less significant than the suffrage of this 
democracy of our United States.
    Today the Committee will be hearing testimony and receiving 
testimony from witnesses who will very eloquently articulate 
the circumstances of its subject before us: the voting rights 
of American citizens who reside in our U.S. territories. The 
Committee will hear compelling arguments of the inequality and 
injustices that surround these circumstances, how it is 
fundamentally un-American and how it is long overdue for 
remedy.
    For my part, in representing my constituency the people of 
Guam, I first want to open in full agreement that the inability 
for American citizens to impact electorally the full voting 
representation they have in the Congress and the President of 
their country is a circumstance that must be addressed.
    Equally, as a nonvoting Member of this House, I also have 
the unique perspective to assert in full confidence that these 
present circumstances denying American citizens of the 
opportunity for full representation is not born out of malice 
from any Member of this House. Plainly put, there is not a 
single Member of Congress, to my knowledge, who relishes in the 
fact and seeks to perpetuate the reality that Americans 
anywhere, and in particular our territories, are 
disenfranchised.
    We are here today because the history of our country, the 
makeup of our Republic, the framework of our Constitution, and 
the case law of our courts have not caught up to what we today 
would expect to be an American standard, that every American 
living in America should be equally protected and represented 
in the law as Americans.
    The challenge before us today is how to address this. 
History has shown that it was never the intent of this Republic 
to perpetually maintain territories. Every American territory 
before 1898 had a very distinct path into the Union. And what 
was consistent in all paths was a deliberate attempt to invest 
in their eventual inclusion. Whether it was through encouraging 
settlements or investing in infrastructure or the deliberate 
attempt by the predecessors of this body to take pride in 
growing the number of States that encompass the United States 
of America.
    Territories that qualify for full inclusion into the 
Republic as States must be so included. Puerto Rico must be 
included as a State in this Republic or released by this 
Republic. There is no rational basis to maintain it as a 
territory as it meets all constitutional thresholds for 
inclusion. And the inaction of this government that perpetuates 
its territorial status is inexcusable.
    A binding referendum in Puerto Rico administered by the 
United States for inclusion in the State of Puerto Rico as a 
State or recognition of an independent Puerto Rico is a duty we 
have not the convenience to ignore. The very integrity of our 
Republic is a stake.
    For our smaller territories, to include Guam, a deliberate 
attempt to bring them into the Union must be undertaken by this 
country. Further increments of progress must be taken in this 
regard to include the extension of delegates, not only to the 
United States House of Representatives as we have today but to 
the United States Senate, that there may be some form of 
representation in both Chambers of Congress. Similarly 
Electoral College representation as so extended to the District 
of Columbia must so too be extended to all territories. While 
the latter represents a larger hurdle requiring a 
constitutional amendment, the former could have us seating 
Senate delegates posthaste, as my own H.R. 5526 introduced in 
this 116th Congress would see it so.
    Additional consideration must be given to territories to 
enhance their abilities to qualify for inclusion as States. 
Deregulation of shipping constraints to lower the cost of 
living, travel waivers to encourage tourism growth, public 
transportation infrastructure investment to mobilize economies, 
and higher education investment to firm up local governments 
and enterprises are all modern-day equivalents of the same 
policies that transformed the West and the Midwest into the 
great States west of the Mississippi that we have in our Union 
today.
    A deliberate attempt to meet their unique needs and 
circumstances in order to fuel their growth into full 
membership and the fulfillment of full voting rights for those 
who call them home is something that we need to support for our 
territories. The quest for voting rights in this Republic and 
how we address it is nothing less than a testament of the 
government's commitment to this Republic, to growing it, 
strengthening it, and also graduating its territories into 
whole parts of it or setting them free, and preserving this 
Republic from bastardization. This is the question before us, 
the sanctity of American democracy.
    Thank you so much for the opportunity to testify today. I 
look forward to working with you and all the great 
Representatives of this Congress to address these truths as 
they are now known and our commitment to it.
    Thank you, Madam Chair. And I yield back.
    [The statement of Mr. San Nicolas follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Fudge. Thank you.
    Congressman Gregorio Kilili Camacho Sablan, you are now 
recognized for five minutes.

    STATEMENT OF THE HON. GREGORIO KILILI CAMACHO SABLAN, A 
  DELEGATE IN CONGRESS FROM THE TERRITORY OF NORTHERN MARIANA 
                            ISLANDS

    Mr. Sablan. Thank you, Madam Chair Fudge, Ranking Member 
Davis, and other Members of the Subcommittee. Thank you for 
holding today's hearing. I wish to associate myself with the 
statements including the discussion of the legal hurdles of 
allowing citizens of territories to fully and finally exercise 
their rights as Americans. And I hope I can help the 
understanding of the mechanics of elections.
    I served for 10 years as election commissioner in the 
Northern Mariana Islands. I was responsible for voter 
registration, absentee mail-in ballots, training election 
workers, securing ballots, and all the behind-the-scenes 
complications that produce a clean and creditable election.
    We are all concerned how the coronavirus may affect the 
election process. To begin on a hopeful note, I will tell you 
that one week before the 2018 election, a super typhoon struck 
the Mariana Islands, throwing life into chaos, cutting off 
power and water, stripping the roofs from the schools where we 
go to vote. The Governor delayed the election by one week and, 
according to the Congressional Research Service, the only case 
of the postpone Federal general election in modern history.
    Though people were struggling to put their lives together, 
one week later, they voted. The turnout was good. The integrity 
of the election seemed to have been maintained. The results 
were not questioned, not until later. If the people of the 
Marianas can hold an election even after the second worst 
typhoon in the United States' history, surely America can 
maintain this cornerstone of our democracy even in the middle 
of the coronavirus pandemic. I am hopeful based on the 2018 
experience. I am also hopeful because Congress has already 
acted to strengthen election security funding in the 
Consolidated Appropriations Act in December.
    The Marianas, for example, received $600,000 using that 
money, I understand, to operate voting equipment, auditing, 
voter registration, strengthening cybersecurity, and better 
track campaign financing. That appropriation comes to the 
Marianas through the Help the America Vote Act, which is 
particularly satisfying.
    In 2002, when I was election commissioner and the Help 
America Vote Act was enacted, the Marianas had no delegate in 
Congress and, thus, no Federal election. So we were not 
included in HAVA. It has long been my goal to fix that gap in 
the Consolidated Appropriations deal. The Congress did not stop 
with just one appropriation. In March, we passed the CARES Act 
with more funding to ensure the November 3rd Federal election 
goes on, despite the coronavirus crisis. The Marianas Election 
Commission gets another $600,000 from the CARES Act to 
implement vote by mail and expand voter registration and early 
voting. The money can also increase the number of voting places 
to reduce crowding and keep in-person voters healthy.
    These actions do not mean we are finished. House Democrats' 
signature legislation, H.R. 1, the For the People Act, also 
aimed to make voting easier and more secure. But the Senate has 
refused to take up our bill. The For the People Act permanently 
includes the Marianas in the Help America Vote Act. There is 
also a technical version adding the Marianas to the National 
Voter Registration Act and protection for Marianas voters who 
use the Uniformed and Overseas Citizens Absentee Voting Act to 
vote in Presidential elections.
    And H.R. 1 establishes a commission to recommend how to 
fully provide full and equal voting rights here in the House of 
Representatives and in elections for President for the people 
of the Marianas and the other Insular areas.
    So let us hope today's hearing reminds America there is 
more to be done to improve and protect America's election and 
ensure every citizen has the right to representation and the 
right to vote.
    The Senate should too--something is wrong here----
    Chairwoman Fudge. We can hear you, Kilili.
    Mr. Sablan. I am hearing something else. Oh, there. Okay.
    So, lastly, I want to remind the Subcommittee that there 
are technical corrections needed in Federal election law to 
ensure people in the non-State areas are protected from 
intimidation, threats, or coercion when they cast their ballots 
in Federal elections. So, in 2011, I induced H.R. 3268, which 
makes all Federal election law fully applicable in the 
Marianas, American Samoa, Guam, and the U.S. Virgin Islands. 
The bill bars government officials from using their authority 
to interfere with the nomination or election process. The bill 
bars noncitizens from voting and prohibits any false 
representations when registering or voting.
    Among the cosponsors was our late and beloved John Lewis. I 
hope that, Madam Chair, as part of a memorial, we can take up 
this long overdue technical correction in Federal election law 
so everyone in the Insulars has all of the voting right 
protections afforded to the rest of the United States. I will 
certainly look forward to working with Chair Fudge to reach 
that legislative goal. I look forward to hearing Mr. Weare's 
testimony today as well.
    I thank you for the opportunity to testify today. Thank 
you. I yield.
    [The statement of Mr. Sablan follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Fudge. Thank you very, very much. Thank you to 
all of the witnesses. Certainly, I for one, I am with you, just 
tell me what I need to do, and I will do the best I can to 
ensure that we do the right thing. So I appreciate your 
testimony.
    And before I go to the second panel, I need to ask you 
unanimous consent to enter into the record a written statement 
from former Congressman Robert Underwood who represented Guam 
in the Congress from 1993 to 2003.
    Without objection, so ordered.
    [The information follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Fudge. I also ask unanimous consent that 
statements be entered into the record from the National 
Disability Rights Network, attorney Pamela Colon, Dr. Carlyle 
Corbin, attorney Emile Henderson III, the Virgin Islands GOP, 
Caroline Fawkes, supervisor of the elections for the Virgin 
Islands, Carol Burke, the Democratic National Committeewoman, 
Gustav James, a citizen of St. Croix, U.S. Virgin Islands, and 
John M. Canegata, Chairman of the V.I. GOP.
    [The information follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Without objection, so ordered.
    It is now time for our second panel. Gerard Emanuel is a 
retired educator, having worked most of his adult life as an 
educator in jobs that involved history, culture, political 
status, research and/or public administration.
    Mr. Emanuel was a political status educator for the United 
States Virgin Islands Bureau of Public Administration, as well 
as the executive director for the Virgin Islands Commission on 
Status and Federal Relations, and a delegate to the Fifth 
Constitutional Convention.
    Gwen-Marie Moolenaar is the president of the League of 
Women Voters of the Virgin Islands. Dr. Moolenaar is from St. 
Thomas. She has a Ph.D. in neurophysiology and was a faculty 
member of the Howard University School of Medicine from 1972 to 
1988, and became provost of the University of the Virgin 
Islands before retiring in 2005.
    Neil Weare is the President and founder of Equally American 
Legal Defense & Education Fund. Raised in the U.S. territory of 
Guam, Mr. Weare worked for Guam's former delegate Madeleine 
Bordallo prior to attending law school. Mr. Weare is a civil 
rights attorney committed to achieving equal rights for 
Americans living in the U.S. territories.
    Mr. Emanuel, you are now recognized for 5 minutes. Please 
unmute yourself.
    Mr. Emanuel. Where is it?
    Chairwoman Fudge. We can hear you now.

  STATEMENTS OF GERARD EMANUEL, RETIRED EDUCATOR; GWEN-MARIE 
  MOOLENAAR, PRESIDENT, LEAGUE OF WOMEN VOTERS OF THE VIRGIN 
    ISLANDS; AND NEIL WEARE, PRESIDENT AND FOUNDER, EQUALLY 
            AMERICAN LEGAL DEFENSE & EDUCATION FUND.

                  STATEMENT OF GERARD EMANUEL

    Mr. Emanuel. Good morning, Chairwoman Fudge and other 
honorable Members of the House Administration Subcommittee on 
Elections. My name is Gerard Emanuel. Thank for inviting me to 
this important hearing.
    I would also like to thank the Congresswoman, The Honorable 
Stacey Plaskett, for recommending me as a presenter. I will 
address voting on the national level. I concur with Dr. Carlyle 
Corbin statement to this subcommittee.
    Today I hope to demonstrate that the basis of withholding 
rights from the Virgin Islands including voting on the national 
level is fatally flawed. The legal decision that denied us 
these voting rights may have been based on Jim Crow views that 
was said before, that should never have been a foundation for 
making legal decisions.
    Honorable Members, as a result, in unincorporated 
territories, as you know, the Constitution doesn't follow the 
flag, but constitutional experts, such as Stanley Laughlin, 
state that it should, except in cases where applying it would 
be impractical, anomalous, and violative of the local culture 
and custom.
    Granting the territories the right to vote for the 
Commander in Chief as well providing voting representation in 
both Houses of Congress would definitely not be impractical or 
violate any local or cultural custom. Doing this is violation 
of our rights of U.S. citizens. The reason for the denying 
these rights were stated by Justice Brown in Downes v. Bidwell 
over 120 years ago.
    Furthermore, the Court was unanimous in Balzac v. Puerto 
Rico in denying U.S. citizens their trial jury solely because 
they reside in an unincorporated territory. These reasons might 
have seemed valid during the Jim Crow era, when segregation was 
based on Plessy v. Ferguson. They should not have been valid 
after Brown v. Board of Education, and certainly not after each 
territory had proven that it could operate the government based 
on the laws and principles of the U.S. Constitution for more 
than half a century.
    Furthermore, denying your citizens the right to vote in 
national elections simply because of their residence is out of 
step with the recent clamor for justice and equality, 
especially for persons of African descent after recent public 
events and the death of two civil rights heroes.
    Honorable Members, the Supreme Court invented the status of 
unincorporated territory. And it was never intended to be 
permanent, as said before. Justice White said this. This 
untenable and unconstitutional situation has lasted for over 
100 years in the Virgin Islands.
    The remedy we seek Congress to consider that, since we are 
too small to be a State, like Puerto Rico, all U.S. citizens in 
the territories all the duties and stabilities of citizenship, 
they should be granted certain rights that U.S. citizens who 
reside in the States have. Denying us a voting representation 
in Congress is anachronistic, anomalous, discriminatory, and 
must be changed because it is all inconsistent with the ideals 
upon which this country was built. All of us have paid the tax 
by fighting and dying in wars fought by the U.S. We are also 
obligated to perform all the responsibilities, as was said 
before. Isn't it fair that we obtain the rights of you residing 
in the States while we reside in the Virgin Islands? Denying 
this territory is like taxation without representation, one of 
the fundamental reasons for the Revolutionary War. And as my 
Congresswoman mentioned, we fought the Revolutionary War not 
only but [inaudible] who created. We fought in this war 
[inaudible] and died in all wars.
    In conclusion, Balzac v. Puerto Rico that is the status the 
territory itself, not the status of U.S. citizens there, that 
deter rights and privileges [inaudible]. And an unincorporated 
territory is sometimes more than an international country. 
[Inaudible] Members of Congress, they can receive SSI, but it 
is important to become a resident [inaudible] territories. 
Please remedy this.
    Thank you.
    [The statement of Mr. Emanuel follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Fudge. Thank you, Mr. Emanuel. We were having 
just a bit of difficulty with your sound. But we do have your 
written testimony as well. So thank you so much.
    Ms. Gwen-Marie Moolenaar, you are now recognized for five 
minutes.

               STATEMENT OF GWEN-MARIE MOOLENAAR

    Ms. Moolenaar. Thank you. Good morning, Madam Chair, and 
members of the subcommittee, and honorable guests here today. 
Thank you so very much for this invitation to testify on voting 
rights in the U.S. Virgin Islands. It is disturbing that this 
great country of ours, which was founded on the idea of 
government by, of, and for the people is today struggling to 
uphold one of its founding principles--the democratic right of 
its citizens to vote.
    The League of Women Voters of the Virgin Islands notes that 
we are in the Virgin Islands free of some of the more heinous 
assaults against citizen rights to vote. I am pleased to report 
for example that we do not have gerrymandering, nor blatant 
purging of voter rolls, nor threats of fraud associated with 
mail-in voting. So it is in our territory citizens' voting 
rights are well, protected when it comes to local government. I 
cannot predict that it will always remain so, but I do not 
foresee signs of any imminent change ahead. However, more could 
always be done for the physically challenged and physically 
disabled.
    On a parallel note, within the territories, there has been 
a strong push for the Presidential vote. The League of Women 
Voters of the Virgin Islands has supported the efforts of Neil 
Weare in this regard, and we will continue to do so. But 
besides the Presidential vote however we are concerned that our 
congressional representatives do not have a stable vote in 
Congress beyond the standing committee level. Congress has 
wrestled with this issue of the delegate vote since 1794. As 
our territorial representatives are not Members of the House, 
they cannot vote on the House floor, but can do so in standing 
committees, and only occasionally in the Committee of the 
Whole, depending on the majority control of the House. 
Generally their vote in the Committee of the Whole is allowed 
under Democratic control but not under Republican control of 
House. What is the rationale there besides a partisan 
advantage?
    But this can easily be changed in House rules. The House 
has changed the rules and voting responsibilities of the 
delegates over the years from a simple presence in 1794, to now 
a vote in standing committees and an occasional vote in the 
Committee of the Whole. So change has and can continue to 
happen. Rules can change, and so can our Constitution.
    It is noteworthy that, in some European countries, 
representatives from their Caribbean territories have full 
voting powers in the national voting assemblies. If our 
representatives have been found worthy over the years to be 
good enough for voting membership in standing committees and 
occasionally in the Whole, why not within the Committee on the 
Whole on a regular basis irrespective of partisan control?
    At a Conference on Territorial Affairs held in Washington, 
D.C. in 1993, when asked about this, a U.S. Congressman 
attending the conference stated that to allow territorial 
representatives at that level of the vote would be tantamount 
to, and I quote him, it would be tantamount to ``a case of the 
tail wagging the dog.'' However, it needs to be pointed out 
that in that proverbial tail is the population of Puerto Rico 
which outnumbers the population of at least five or six States.
    Unfettered it is reminiscent of the old days of the 
plantations of the South when the so-called lesser beings stood 
outside the house, not good enough to step inside. Why are the 
territories being treated like the lesser beings in the U.S. 
Congress standing outside? After all, we have fought in your 
wars shoulder to shoulder with other American soldiers, as has 
been pointed out by Professor Emanuel and Congresswoman 
Plaskett. We have been fighting since we were purchased from 
Denmark in 1917.
    Also, the territories do contribute millions, if not 
billions, collectively through special taxes. Look at rum and 
our and our gasoline taxes. However, we recognize that these 
issues will remain problematic until we can clarify our Federal 
relations, until we can determine our political status with the 
U.S. To do this well, we need to have adequate support and the 
necessary resources to make those decisions.
    Once done, these issues can be more easily resolved within 
that new context and through meaningful discussions and 
compromise with Congress on how we can have full inclusion as 
U.S. citizens in the U.S. territories.
    Thank you.
    [The statement of Ms. Moolenaar follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Fudge. Thank you very much.
    Mr. Weare, you are now recognized for five minutes.

                    STATEMENT OF NEIL WEARE

    Mr. Weare. Thank you, Chair Fudge, Ranking Member Davis, 
distinguished Subcommittee Members and representatives of the 
territories. Thank you all for the opportunity to testify in 
support of voting rights for the nearly 4 million Americans 
living in U.S. territories, 98 percent of whom are racial or 
ethnic minorities.
    I am Neil Weare, president and founder of Equally American 
Legal Defense & Education Fund. I grew up in Guam, and when I 
turned 18, I was required to register for Selective Service. I 
was unable to vote for President. I founded Equally American in 
2013, and it remains the only public interest law organization 
focused exclusively on advancing equality and voting rights in 
the U.S. territories. Building on the progress of earlier civil 
rights movements, including the work of American heroes like 
John Lewis and Thurgood Marshall, we approach our work through 
a civil rights lens and do not take a position on political 
status. Using civil rights litigation, we work to build the 
kind of broad awareness and consensus at both the national and 
local level needed to end the second class treatment of U.S. 
citizens in the territories.
    On Veterans Day in 2015, Equally American filed the Federal 
voting rights lawsuit on behalf of Luis Segovia and other 
territorial residents, who could have voted for Presidents 
under overseas voting laws if they lived literally anywhere 
else in the world, even a foreign country. We also represented 
the League of Women Voters of the Virgin Islands, which Dr. 
Moolenaar leads.
    Luis and three other plaintiffs were decorated veterans who 
honorably served in the U.S. Armed Forces, swearing an oath to 
support and defend the Constitution of the United States and to 
obey the orders of the President of the United States. Yet, 
despite their service, they remained disenfranchised, unable to 
vote for their Commander in Chief. These decorated veterans 
deserve better. And their story is not unique.
    U.S. territories have a proud tradition of military 
service. Over 100,000 veterans live in the territories having 
served to defend our Nation's democratic and constitutional 
principles. Yet they remain disenfranchised simply because of 
where they live.
    It is also clear that the right to vote must be viewed as a 
kitchen table issue, not simply a matter of principle. 
Residents of U.S. territories are shortchanged in a range of 
Federal benefits programs that most Americans take for granted. 
Disparities in Federal Medicaid policy leaves citizens in the 
territories without the funding that ensures a basic level of 
healthcare sustainability in most American communities. Under 
Federal law, otherwise eligible low-income, aged, blind, or 
disabled Americans living in most territories are entirely 
precluded from receiving SSI benefits based solely on where 
they live. Some of these discriminatory Federal laws have been 
recently struck down in Federal courts and will likely soon 
come before the U.S. Supreme Court. But Congress need not and 
should not wait for the Supreme Court to say whether this kind 
of discrimination is unconstitutional for Congress to know it 
is wrong.
    The grim reality is, until residents of the territories are 
able to vote for President and have voting representation in 
Congress, life and death decisions will continue to be made by 
the Federal Government without their input.
    Underlying the ongoing disenfranchisement and inequality 
facing U.S. citizens in the territories is the shameful legacy 
of the Insular Cases, a series of controversial decisions 
grounded in overt racism, which for over a century have 
relegated those territories to second class status. While other 
racist Supreme Court decisions like Plessy and Korematsu have 
been overruled, the Insular Cases doctrine of separate and 
unequal is still on the books. Until the Insular Cases are 
overruled, discrimination against residents to the territories 
is unlikely to end. We are working to do just that through 
groundbreaking civil rights legislation.
    One political obstacle to the expansion of voting rights in 
U.S. territories has been the perception of providing political 
representation to these Americans would benefit one party over 
the other. But voters in each of the territories consistently 
elect both Democrats and Republicans to represent them in all 
levels of government. In Puerto Rico, Congresswoman Gonzalez, 
of course, is a Republican, as is the current Governor there 
and even the president of their Senate, while their immediate 
predecessors were all Democrats. Voters in the other 
territories also elect both Republicans and Democrats. 
Misguided politics should not be an excuse for continued 
disenfranchisement.
    This ongoing disenfranchisement is particularly concerning 
because of the undeniable connection it has to issues of race. 
We cannot ignore the fact that, by silencing citizens in the 
territories, we are silencing Americans who have long faced 
racism, systemic bias, and racial exclusion.
    We ask Congress to act so that citizens in the territories 
who cannot vote for President and lack voting representation in 
Congress can finally have their voices heard. It is the right 
thing to do, the moral thing to do, and this year in 2020, it 
is long overdue.
    Thank you very much.
    [The statement of Mr. Weare follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you. Thanks to all of our 
witnesses. I so much appreciate your testimony.
    It is now time for members to ask questions. I would first 
recognize Mr. Butterfield for five minutes.
    Mr. Butterfield. Thank you very much, Madam Chair. And 
thank you to the witnesses for your testimony today. I have 
heard most of it. I am in my Rayburn office, and I have been 
following your testimony, as well as doing a few other things 
to make sure that I could ask you some informed questions.
    Let me just simply start first with the delegates. And 
thank you for your passion. I have watched each you in your own 
space as you have advocated for your constituents. And I just 
want to thank you for your passion. And like the Chair, I hope 
that I am here long enough to see the day that you will have 
full voting rights in the Congress of the United States.
    Let me just ask the four delegates, if I can do this very 
quickly, and I will talk slowly so you can kind of think of the 
two things that you could recommend, but if you would recommend 
two things, two things that we can do to improve voting in the 
territories. Two things, what would they be? Congresswoman 
Plaskett.
    Ms. Plaskett. Thank you very much for the question. The 
first thing I would, which has been done and I believe now 
needs to be an actual creation is, in H.R. 1, I authored and 
the other territories agreed with me on the creation of a 
congressional task force that would put into the record what 
have been the implications and the effects of not having voting 
rights in the territories, as well as to come up with 
recommendations for that inclusion to be presented to the 
Congress. I believe that that should be done.
    Mr. Butterfield. Thank you.
    Ms. Plaskett. The other thing, the second one would be to 
remove the barriers and the disparity and treatment of the 
territories in terms of funding so that we could grow our 
economies and our population to be able to come up to par and 
move towards a more equitable position to demand either 
inclusion or independence.
    Mr. Butterfield. Let me ask the gentlelady from Puerto Rico 
the same question. Two things, two very basic things that we 
can and should do. Jenniffer.
    Chairwoman Fudge. G.K., I am not sure she is still on the 
line.
    Mr. Butterfield. All right.
    Let me go to the representative from the Northern Mariana 
Islands, please. Two things.
    Mr. Sablan. Thank you for your question, Mr. Butterfield. I 
will agree with delegate Stacey Plaskett that the passage of 
H.R. 1, the enactment of that bill into law would be extremely 
helpful. Having said that, I also would think that the 
provisions of H.R. 3268 will help move forward the exercise of 
free and fair elections in the territories--stating that 
elections in the territories should be held up to Federal 
standards as well. Elections in the territories are intramural 
sports, Mr. Butterfield, seriously. Things get mixed up. And I 
am the only Democrat in office for the past 12 years. Just 
imagine.
    Mr. Butterfield. You are voting seriously on the island. Is 
that right. I mean, your constituents treat this thing very 
seriously. Yes.
    Mr. Sablan. Our participation is always for the most part 
in the upper 80 percent. Unlike in our Nation, which it is, you 
know, upwards of 50 or 60 percent.
    Mr. Butterfield. Sure.
    Mr. Sablan. And, of course, the process of [inaudible] 
success of Mr. Weare is also good for the territories. Thank 
you.
    Mr. Butterfield. Thank you, sir.
    Finally, to the gentleman from Guam, two things, two things 
in plain English, two basic things that we can and should do.
    Mr. San Nicolas. Thank you, Congressman. I agree with my 
two colleagues, Congresswoman Plaskett on H.R. 1, as well as 
the legislation referenced by Congressman Sablan.
    As well, as I would like to put on the record, as I 
mentioned in my testimony, H.R. 5526. Sir, as you know, if you 
have any issue that you want to have addressed in the Senate, 
you can walk over and talk to your Representative in the 
Senate. Territories do not have that luxury. The challenge that 
comes with that is that, you know, territorial issues and 
concerns don't have a voice. And so, when we have things in the 
CARES Act or the HEROES Act or even the HEALS Act, they are 
crafted without the perspective of the territories when it is 
being managed and handled on the Senate side. And that 
inability for us to have even basic input is just so 
destructive to our ability to advocate for representation for 
our people. And as you see with us here today, just having even 
delegate representation is a huge step forward. And I think 
that getting that for our territories in the Senate is 
something that--is an action step that we can do right now to 
increase representation for our people.
    Mr. Butterfield. Thank you. Thank all of you. And you have 
my conditional unqualified support, as well as the chair. Thank 
you very much.
    Chairwoman Fudge. Thank you very much. Ranking Member 
Davis, you are recognized.
    Mr. Davis. Well, thank you, Madam Chair. And thank you to 
the witnesses. This is a great opportunity to hear about 
priorities. I am glad Ms. Plaskett was advocating for a task 
force to have Congress look at the potential of changes for our 
territories. I would support a provision like that. But let's 
not kid ourselves: Throwing that into a 600-page bill named 
H.R. 1 that was written before and cosponsored by every member 
of the majority and announced the day of swearing in, people 
didn't have as much input in that bill. And there are so many 
bad things in that piece of legislation, like the first ever 
taxpayer funding to go to our own congressional campaigns. My 
constituents can't stand for that. And then, after that was 
called out, it was changed to the first ever corporate money 
directly going to our own campaigns. So, if we want to work 
together, then let's work together on this. But we have got to 
watch for what is happening right now in our territories or in 
our States, in our elections that have been recently held.
    Almost month ago, we had an election in New York City. We 
still don't have the results. So many of the provisions that 
dealt with elections were actually part of H.R. 1 and 
instituted in States like New York that we don't even have the 
results. What are we doing to fix this? What are we doing to 
stop the fraud that happened in New Jersey? What are we doing 
to stop the fraud that happened in Indiana? No, we are going to 
put our head in the sand? All of the things that we found so 
wrong, long before I was alive, that stopped people from being 
able to vote are happening in our country right now by closing 
polling locations. Making sure that people will only use one 
certain type of process is disenfranchising tens of thousands 
of people in our election process. That is wrong.
    So, with that being said, Ms. Moolenaar, please tell us how 
you in the Virgin Islands are able to prepare for this 
pandemic, and what are you doing to stop what we have seen 
happen in other States already just a few weeks ago?
    Ms. Moolenaar. I indicated in my opening remarks in 
testimony that, indeed, in the Virgin Islands, we are free from 
all of the heinous assaults that we see happening nationwide, 
and we are all very much concerned that this is happening in 
the United States.
    We have a supervisor of elections that I am disappointed 
that she was not included in part of this discussion, but she 
would have been able to indicate to you that, indeed, there are 
rules and regulations and guidance that we are following that 
prevent all of that, and we have been free of that.
    As I indicated in my testimony, I can't promise we will 
continue to do so, but, right now, we don't have that. Our big 
concerns right now are, as all of the other witnesses have 
pointed out, we are very much concerned about the fact that we 
are not able to discuss in Congress on a full level with all 
other citizens through their Representatives what our concerns 
are, what our needs are. And I am so happy that the 
representative from Guam has also included the statement that 
we need also to have representatives also in the Senate. This 
has to be changed.
    And I believe that, I ask that you look at my last request 
in my statement that we do need to have the matter of status 
finally resolved within the territories, and we need to have 
the support that would allow us to make meaningful decisions on 
this matter. The Constitution has been changed. Rules 
Committees--rules and committees in the House have been 
changed. We can change, and we must change.
    Mr. Davis. Well, thank you, Ms. Moolenaar. I appreciate 
that. And, again, I know a lot of discussion in testimony has 
been about having access to HAVA funds----
    Ms. Moolenaar. Yes.
    Mr. Davis [continuing]. And I think that is something we 
can work together on in a bipartisan way. But at the same time, 
we also have to follow the law. What is the Virgin Islands 
doing to maintain their voter rolls?
    Ms. Moolenaar. Again, that is a good question that our 
supervisor for elections would have been able to answer. But I 
know that they have not had any difficulties with doing so, and 
we have not heard of any assaults against that. And I know that 
it is being done on a regular basis. I have spoken with the 
supervisor of elections on a number of issues, and she has 
indeed indicated that they do look at voter rolls, and they are 
updated on a regular basis.
    Mr. Davis. Actually, I am out of time. I yield back. Thank 
you.
    Chairwoman Fudge. Thank you, Mr. Davis.
    Mr. Aguilar, you are now recognized for five minutes.
    Mr. Aguilar. Thank you, Madam Chair. I appreciate you 
having this hearing. This is critically important to hear from 
our colleagues who represent the territories, as well as our 
guests who presented testimony. And I am going to start with 
them.
    Ms. Moolenaar, what do you feel most--I mean, you talked 
about representation, just like Delegate San Nicolas mentioned 
as well. What do you feel most Americans need to know about 
physically voting in the territories? What is often overlooked 
and not understood? And I will ask Ms. Moolenaar, and then Mr. 
Emanuel and Mr. Weare.
    Ma'am, go ahead.
    Ms. Moolenaar. Well, I did most of my education on the 
mainland. And to tell you the truth, most Americans know very 
little about the territories. But when I do indicate that we 
did not have when I was in school, we did not have a voting 
representative at any level and that finally, when they do 
vote, the vote is considered inconsequential--they are not 
included as part of the quorum in the House, as if they are not 
there--people are stunned and shocked. I think that the vast 
majority of Americans are completely unaware of the inequities 
that are thrown to our citizens in the territories. I think 
most Americans would be shocked to know that indeed these 
conditions exist. And those Americans from the mainland who do 
come to our territory come up to the rude awakening that they 
could not vote for the President until they flew back to the 
mainland as if there was something tainted on the place of the 
territories.
    So it is becoming known. I think we need to let most 
Americans know--and I think if we did, there would be an 
upswell of individuals to support the claims that we are making 
in the territories that we need to be given our full rights as 
citizens because we are behaving like full citizens: going to 
war, paying taxes.
    Mr. Aguilar. Thank you. Mr. Emanuel.
    Mr. Emanuel. Yes, thank you very much for the question. I 
think you are asking, what is it that citizens in the United 
States need to know about the problems we are having? I would 
align myself [inaudible] the Insular Cases [inaudible] exist, 
they stated specifically that we are not having Anglo-Saxon 
principals, but people in the Virgin Islands have gone to 
Denmark for hundreds of years dealing with trial by jury, 
dealing with elections, et cetera, as Dr. Moolenaar said. And, 
also, another basis for the Insular Cases concerning the nature 
of our [inaudible] didn't want to give district judges lifetime 
tenures because, I guess, the unincorporated territorial status 
was temporary. But we have been there for over 103 years, so I 
don't know what temporary means in the American parlance.
    So my point that that I think all Americans need to 
understand and the Supreme Court is that the legal basis, if 
there ever was one, the legal basis for having unincorporated 
territories no longer exists. So we should be able to move 
forward and provide all of those formal parts of the 
Constitution, such as suffrage and all the other things to the 
citizens in the territories and to other U.S. citizens when 
they come here. That is basically what I wanted to say.
    Mr. Aguilar. Thank you.
    Mr. Weare.
    Mr. Weare. I think most Americans would be--are surprised 
to learn that there are U.S. citizens under the U.S. flag who 
are completely disenfranchised. One other thing a lot people 
don't realize is just how many Americans live in the 
territories. So the population of the five populated 
territories is actually greater than the population of the five 
smallest States combined. The smallest States have 15 electors, 
10 Senators, 5 Representatives in Congress, and the combined 
population of almost 4 million in the territories have none of 
those things.
    There is also a lot of people who are surprised and kind of 
assume that residents of territories vote for one party over 
another. In Guam, for example, residents of Guam are swing 
voters. There has actually been a straw poll where, while they 
can't vote for President for real, each Presidential election 
since 1980, they get a mark on a ballot who they would vote if 
they could vote. And between 1980 and 2012, Guam voters 
selected the eventual winner of the election a day ahead of the 
rest of the country because Guam is on the other side of the 
dateline.
    So residents in territories are swing voters. This should 
not be a partisan issue. Every American should be able to vote 
wherever they live.
    Mr. Aguilar. Thank you, Mr. Weare. I appreciate it. Thank 
you to our guests for being here. You know, Mr. Davis made a 
point in his opening remarks about the number of men and women 
who serve in our armed services who come from the territories, 
and on a per capita basis, the territories send more than 
Illinois, more than California, more than any State in our 
Union. And I think most Americans need to start connecting 
those dots about the service to our country and the lack of 
representation that we have.
    I also want to say that I owe the Chair a coffee because 
this might be the first hearing, Madam Chair, that Mr. Davis 
hasn't mentioned ballot harvesting in California. So he is 
not----
    Mr. Davis. Ballot harvesting. Time is up. Ballot 
harvesting.
    Mr. Aguilar [continuing]. It is not a message today, even 
though we know that the only voter fraud that happened in the 
last election was in North Carolina. But, with that, Madam 
Chair, I will yield back.
    Chairwoman Fudge. Thank you very, very much.
    Mr. Loudermilk, you are recognized for five minutes.
    Mr. Loudermilk. Thank you, Madam Chair. And thank you for 
allowing me to participate in this today. It is very 
interesting conversation. And I agree with Mr. Davis that this 
is something that a task force would be well advised to look 
into and study in a bipartisan basis.
    And I just briefly want to mention the ballot harvesting in 
California because Mr. Davis refused to do that. So--but moving 
on, Mr. Weare, in your opinion, do the respective territories 
have the infrastructure in place to conduct a smooth Federal 
election? For example, do the territories have the updated 
voting machines, cybersecurity protections, and bipartisan 
election observers to prevent against coercion and fraud?
    Mr. Weare. I am not an election administration expert, but 
I know having voted in many Federal elections myself in the 
territories that they do follow the same practices, sometimes 
for better or worse, as the rest of the country have 
participated by absentee ballot while I was working for 
Congresswoman Bordallo. And I know that election administrators 
such as Congressman Sablan was for many years do the best they 
can with the local and Federal resources to ensure elections--
fair elections are held every cycle.
    Mr. Loudermilk. With the influx of mail ballots that we 
have seen throughout the United States, do you think the 
territories are equipped to handle a potential massive influx 
of voters?
    This is for Mr. Weare.
    Mr. Weare. Sure, again, I am not an expert on those issues, 
but I know that, with territories and how many people do travel 
abroad, absentee voting and voting by mail is a process that 
they are very familiar with, that they have supported. And, 
usually, particularly in a smaller territory, given the smaller 
number of voters involved, it is not--it is not a process that 
is manageable.
    Mr. Loudermilk. Well, thank you, and I also open that 
question up to any of the delegates or any other guests.
    Mr. Sablan. May I----
    Mr. Loudermilk. Sure.
    Mr. Sablan. May I, Mr. Loudermilk? Thank you. I conducted 
elections in the Northern Marianas for 10 years. And, yes, 
absentee voting, about 10 percent, a little bit over 10 percent 
of our population vote by absentee because they moved to the 
U.S. for medical, for educational purposes.
    And, actually, I had an experience where a Navy sailor who 
was in a submarine somewhere underwater actually wanted to 
vote. And we had to immediately and urgently put out a 
mechanism where he would allow us to expose his ballot, because 
we would know how he voted, and actually allowed him to vote. I 
don't know how they sent that transmission, but it came in by 
fax.
    And so, yes, we are able do that. And, yeah, I think it 
would be wonderful because, right now, you can actually, 
starting 10 days before the election, walk in for no reason and 
ask for a ballot so you could vote by mail, even if you are--
just because you are on election day. So, yes, I feel the 
territories are ready for mail-in ballots. That is my 
experience, sir.
    Ms. Plaskett. Mr. Loudermilk, this is Stacey Plaskett 
again. I just want you to know that, under the CARES Act, the 
Virgin Islands on the board of elections, based on the written 
testimony of Caroline Fawkes, received $600,000 for protective 
equipment and other resources to support elections during this 
time period of COVID.
    Additionally, the board of elections has extended the 
period for early voting, which we have been doing increasingly 
over each election cycle, extending the time for early voting, 
which allows people to be able to do that and the social 
distancing and have more time so that there is not a crowd at 
the end. And mail-in ballots and absentee ballots, the 
expansion of that for not having specific reasons or just as a 
request, there is discussion at the board of elections about 
allowing all ballots to be mailed. Those kinds of issues and 
initiatives are being debated and discussed now.
    Mr. Loudermilk. Thank you.
    Chairwoman Fudge. I see two hands up, Mr. Loudermilk. Do 
you want to continue or ask another question?
    Mr. Loudermilk. No, I will just continue with these for the 
remaining time.
    Chairwoman Fudge. Ms. Moolenaar, you need to unmute 
yourself.
    Ms. Moolenaar. Thank you for the question. I am glad that 
Congresswoman Plaskett responded because I was also going to 
mention that the League of Women Voters did indeed speak with 
our supervisor of elections, Ms. Fawkes, and she assured us 
that indeed the system is up for--for the mail-in ballots 
change. She indicated that mail-in voting has been in existence 
for quite a while in the U.S. Virgin Islands because, as it was 
pointed out by Mr. Weare, many individuals have moved to the 
mainland, but they still maintain voting rights within the 
territories. So the system is accustomed to that.
    Ms. Fawkes also indicated that she is aware that the 
tradition of going to the polls is a very strong cultural one 
in the Virgin Islands. So, although, this is--the increase in 
absentee ballots is a possibility, she recognizes that the 
system will definitely not be overwhelmed by an increase in 
absentee ballots. So the Virgin Islands definitely is prepared 
for this.
    Chairwoman Fudge. Thank you.
    Mr. Emanuel. Yes, I think the Congressman's question also 
went to the----
    Chairwoman Fudge. Mr. Emanuel.
    Mr. Emanuel. I am sorry.
    Chairwoman Fudge. You are going to need to be very, very 
brief. The gentleman's time actually expired, but go ahead.
    Mr. Emanuel. Oh, I am sorry. I wanted to say that we also 
changed the machines. We used to have Shouptronic machines. We 
have machines that meet HAVA requirements. We have a paper 
trail. And we have a number of other measures in place to 
ensure the integrity of the elections. Thank you.
    Mr. Loudermilk. Thank you. I yield back.
    Chairwoman Fudge. Thank you very much.
    Mr. Davis, do you have any closing statements or remarks?
    Mr. Davis. Ballot harvesting is bad. Thank you very much, 
Madam Chair.
    Thanks to my colleagues and very educational today.
    I certainly hope we can come together and work on some of 
these issues that were brought to our attention today. You have 
willing partners in the Republican Conference, and I look 
forward to sitting down and discussing some of these in more 
details with each of the--each of my colleagues from the 
territories.
    So thanks again, Madam Chair. I appreciate the opportunity.
    And thank you to all of the witnesses too.
    Chairwoman Fudge. I thank you all. Thank you so much. And 
let me just say a few words in closing. One, if my Republican 
colleagues would like for us to pull out the language that Ms. 
Plaskett has been talking about from H.R. 1 and make it a 
standalone, I would be happy to do that. If that is something 
that you guys want to cosponsor with me, I am happy to do it.
    Secondly, as we talk about how elections are run in the 
territories, it clearly has nothing to do with the status of 
voting for the President of the United States. I mean, my 
colleagues see something sinister around every single corner. 
But let me just say the status and your voting rights and the 
problems in New York have absolutely nothing to do with 
allowing the territories their full citizenship and their right 
to vote.
    I would now just want to thank all of the witnesses and the 
members for their questions. The Members of the Subcommittee 
may have additional questions for the witnesses, and we will 
ask you to respond to those in writing.
    The hearing record will be held open for these responses. I 
thank you all. I thank all of our witnesses for your testimony 
today.
    And, without objection, the Subcommittee stands adjourned.
    [Whereupon, at 11:26 a.m., the Subcommittee was adjourned.]

                                  [all]
</pre></body></html>
